No. 19In The
SUPREME COURT of the UNITED STATES

MARK J. SCHWARTZ,
Petitioner
v.
CLARK COUNTY and JACQUELINE R.
HOLLOWAY,
Respondents

On Petition For Writ Of Certiorari
to the United States Court of Appeals for the Ninth
Circuit

PETITION FOR WRIT OF CERTIORARI
APPENDIX PART D

Mary F. Chapman, Esq.
Counsel of Record
Law Office of Mary F. Chapman, Ltd.
8440 West Lake Mead Blvd. #203
Las Vegas, Nevada 89128
(702)202-4223

TABLE OF CONTENTS
APPENDIX PART D
Excerpts from trial transcript .......................88a-103a
Statutory provisions ....................................104a-116a

i

Case 2:13-cv-00709-JCM-VCF Document 159 Pg 131
THE COURT: You're not what?
MS. CHAPMAN: I'm not trying to be disrespectful,
Your Honor.
THE COURT: Well, you're succeeding, though.
MS. CHAPMAN: Well, my apologies, Your Honor.
THE COURT: But you're -- this is not relevant,
though. It's not relevant to him.
MS. CHAPMAN: It is, Your Honor, when he was the
only -THE COURT: You keep saying, "Oh, it is. It is. It
is." It's not.
MS. CHAPMAN: Your Honor -THE COURT: How does it show that he was
discriminated against? How does it show that Mr.
Schwartz was discriminated against?
MS. CHAPMAN: It shows that he was isolated and

88a

targeted for layoff.
THE COURT: Not necessarily. You want them to
draw -- you want the jury to draw that inference, and
they may draw it. Who knows. But to -- but to sit
here and go over this, which we've been over before
with Ms. Powell -- we heard from her today -- it's -it's -- we're wasting time.
MS. CHAPMAN: I think it is relevant when
Ms. Holloway originally, in her deposition, had
denied Case 2:13-cv-00709-JCM-VCF Document 159
Pg 132
knowledge of this information and then it comes to
light.
THE COURT: But where is that? I mean, if you want
to bring out something, bring it out. But we sit here
going over the same thing again and again and
again. I mean, I've given you a lot of leeway. I'm

89a

going to give you some more. Go ahead. Keep going.
Keep going.
You were talking about HR asking for supporting
documentation for a title change for Ms. Powell.
BY MS. CHAPMAN:
Q. Now, Ms. Holloway, in your deposition did you
admit that there was any interaction between your
office and HR -- or when you were specifically asked
about a title change for Ms. Powell?
THE COURT: That's not a proper question. You
want to ask her a question and then say -- and then
she says, "No, I was in New York that day," and you
got deposition testimony that says, no, she was in St.
Louis that day. But -- but to ask her a question like
that, she's not going to remember. Do you remember
everything you said in your deposition, ma'am?
Maybe I'm -- maybe I'm --

90a

THE WITNESS: No, sir, Your Honor.
THE COURT: No.
BY MS. CHAPMAN:
Q. Ms. Holloway, do you recall me specifically asking
you about an offer of a title change to Ms. Powell in
your
Case 2:13-cv-00709-JCM-VCF Document 159 Pg 133
deposition?
A. I don't recall.
Q. Would you please turn to page 37. Now, on page
37 I ask you a direct question advising you that we
had taken the deposition of Sherri Powell and that
she had testified that she was offered a title change,
which she turned down, and then I asked you if you
had -- could explain because her name wasn't on the
title change list. And your response was?
A. "I don't have any knowledge of that. So I don't

91a

have any knowledge that Ms. Powell was offered a
title change."
Q. And so, then I followed up and reiterated that you
were not aware that somebody had offered Sherri
Powell a title change.
A. Correct, no.
Q. So you do know -- you have testified that you are
aware that there was a -- supporting documentation
to support a potential title change for Ms. Powell
sent to HR; is that correct?
A. Yes.
Q. And Exhibit 17, Part IV, has already been
admitted. And was this the supporting
documentation that your office transmitted to human
resources?
A. Yes.
Q. And who in your office sent this information to

92a

human
Case 2:13-cv-00709-JCM-VCF Document 159 Pg 207
MS. CHAPMAN: It does if the County didn't correct
an error.
THE COURT: Pardon me?
MS. CHAPMAN: It does if the County didn't correct
an error.
THE COURT: If the County didn't correct what?
MS. CHAPMAN: Correct an error that was brought
to their attention on a title change.
THE COURT: Well, how does that affect his -- that
he was laid off because of his disability or his -- his
age?
MS. CHAPMAN: Mr. Hoffman had the same job title
as Mr. Schwartz prior to his title change. The union
brought it to the County's attention that the title
change -- that they had questions and reservations

93a

about the title change because the title was changed
because he was doing HR functions. Then he was -had his HR functions removed, but then his title
wasn't placed back. This e-mail chain is the
correspondence between the union and human
resources and labor relations with regard to that
question.
THE COURT: Maybe you didn't understand my
question. What does that have to do with Mr.
Schwartz's claims?
MS. CHAPMAN: If Mr. Hoffman would not have -THE COURT: So -- so what? It's not whether
Hoffman was treated differently. That's a different
case.
MS. CHAPMAN: No, Your Honor. Mr. Hoffman -Case 2:13-cv-00709-JCM-VCF Document 159 Pg 208
THE COURT: Yes, it is. It's a different case. What

94a

does that have to do with -- with his being -- being
discriminated against because of age or disability?
MS. CHAPMAN: Because Mr. Schwartz had more
seniority, and under the Collective Bargaining
Agreement, Mr. Hoffman should have been laid off
prior to him had his title not been changed.
THE COURT: But the union -- the union could be
responsible for that, but that has nothing to do with
his -his discrimination case.
MS. CHAPMAN: Yes, it does, Your Honor. If you -- if
you're saying, "I was laid off because of my disability
and my age, and I was targeted and they
manipulated the title changes so that they could
isolate me and get rid of me because they didn't want
me" -THE COURT: I understand that's your -- that's your
argument, but that's --

95a

MS. CHAPMAN: Yes, Your Honor.
THE COURT: -- that's attenuated -- I mean, it has -it's not -- he's claiming age and -- and disability.
Right?
MS. CHAPMAN: That's correct, Your Honor.
THE COURT: Okay. But there's -- we need evidence
of that. We don't need evidence that what happened
later was that the County did this and that they
played fast and loose. I mean, that -- why -- why did
the County do that? What's the
Case 2:13-cv-00709-JCM-VCF Document 159 Pg 209
motivation?
MS. CHAPMAN: Yes. Motivation.
THE COURT: No, no. No, no. What's the motivation?
I'm asking you. Why did the County do what they did
here -MS. CHAPMAN: Mr. Schwartz's disability and age

96a

and to get rid of -THE COURT: Why did they do that? Or was it
because
Mr. Hoffman is my dad and we wanted to take care
of him or -or because of Mr. Davis' -- Mr. Davis' uncle
and they're fishing buddies or something. Who knows
what the motivation was, but it doesn't show
anything about discrimination.
MS. CHAPMAN: As Mr. Schwartz testified, he
believed that the title change manipulation -THE COURT: I understand that. But -- but it's not
what people believed; it's what happened.
MS. CHAPMAN: I understand that, Your Honor.
And there was a title change manipulation that
shouldn't have occurred.
THE COURT: That occurred after -- after Mr.
Schwartz was laid off.

97a

MS. CHAPMAN: No, sir. It occurred before
Mr. Schwartz was laid off.
THE COURT: Before? Okay. So -- so they -- they
took care of him; they didn't take care of Mr.
Schwartz. But -- but to say that shows -- that shows
discrimination -Case 2:13-cv-00709-JCM-VCF Document 159 Pg 210
yeah, you can go ahead and smirk at me all you want
to.
MS. CHAPMAN: Your Honor, it does -THE COURT: I know I'm funny. I'm a comedian.
Okay. That's fine. Go ahead and laugh. All right.
Wrap it up. Go ahead.
MS. CHAPMAN: Your Honor, I would move for the
admission of the e-mail that Ms. King has identified,
Exhibit 20.
(Plaintiff's Exhibit No. 20, offered.)

98a

MS. GIVENS: Objection. Relevance.
THE COURT: That -- that's the problem.
MS. CHAPMAN: Again, Your Honor, it is relevant.
The union brought forward -THE COURT: No, it's not relevant. How does it show
discrimination against Mr. Schwartz? I mean, it
could show any number of things, couldn't it?
What's the motivation for the County? The County
said, "We want to get Mr. Schwartz. So, by golly, let's
do everything we possibly can," and they manipulate
this all around. I mean, it's like -- you know, like,
there's a communist hiding under the bed. There's a
communist under every bed or something. Every -every action the County takes is related to Mr.
Schwartz. But what was the motivation
for this?
MS. CHAPMAN: Again, Your Honor --

99a

THE COURT: Now, who -- now, who wanted -- the
County hated -- so hated Mr. Schwartz they said,
"Hey, let's take care of Mr. Hoffman and the heck
with Mr. Schwartz." Is that -- that your position?
That's what you're saying.
MS. CHAPMAN: We're saying that they wanted to
get rid of Mr. Schwartz because of his age and his
disability and they made -THE COURT: So they -MS. CHAPMAN: -- altercations [sic] and title
changes to be able to accomplish that so they could
circumvent his rights under the Collective
Bargaining Agreement.
THE COURT: Why not just get rid of him? That's
what they did.
MS. CHAPMAN: Yes, Your Honor. And we've sued
them for it.

100a

THE COURT: You sued the County?
MS. CHAPMAN: Yes, Your Honor. Mr. Schwartz has
THE COURT: For this manipulation, this title
manipulation?
MS. CHAPMAN: We sued them for the
discrimination.
THE COURT: Pardon me?
MS. CHAPMAN: We sued them for age and
disability discrimination.
THE COURT: You're talking about this lawsuit?
MS. CHAPMAN: Yes, Your Honor.
Case 2:13-cv-00709-JCM-VCF Document 159 Pg 211
THE COURT: Yeah, but that -- that's -- that has
nothing to do with Mr. Hoffman.
MS. CHAPMAN: It does, Your Honor, when they
made sure that Mr. Hoffman had a different title so
that they were clear to lay off Mr. Schwartz instead

101a

of Mr. Hoffman since Mr. Schwartz had more
seniority. Mr. Hoffman, had he stayed
in his title -(Simultaneous crosstalk.)
THE COURT: -- they ran all this layoff stuff -layoff stuff by the -- by the union, did they not?
MS. CHAPMAN: Yes, Your Honor. And the union
brought it to the department's attention, and they -BY MS. CHAPMAN:
Q. Ms. King, did you conduct an -THE COURT: Go ahead. Go ahead. I'll give you some
latitude. Go ahead. Go ahead with this, with your
conspiracy.
MS. CHAPMAN: Again, Your Honor, I would request
that Exhibit 20 be admitted.
THE COURT: It will be admitted. What is it?
Exhibit what?

102a

MS. CHAPMAN: 20, Your Honor.
THE COURT: It will be admitted.
MS. CHAPMAN: Thank you, Your Honor.
THE COURT: You're welcome.
BY MS. CHAPMAN:
Q. Ms. King, did you or anyone, to your knowledge,
in your workforce do an investigation or look into the
concerns about the title change manipulation that
was brought to your attention in this e-mail?
MS. GIVENS: Objection to the form of the question.
Title change manipulation, I don't believe that that's
THE COURT: Oh, no, no. Overruled. That's -- that's
fine. That's -- that's what you want to call it, that's
fine. Go ahead.
THE WITNESS: Is the question did I do an
investigation? The answer is no.
MS. CHAPMAN: Nothing further, Your Honor.

103a

29 U.S.C.A. § 623
§ 623. Prohibition of age discrimination
(a) Employer practices
It shall be unlawful for an employer-(1) to fail or refuse to hire or to discharge any
individual or otherwise discriminate against any
individual with respect to his compensation, terms,
conditions, or privileges of employment, because of
such individual's age;
(2) to limit, segregate, or classify his employees in
any way which would deprive or tend to deprive any
individual of employment opportunities or otherwise
adversely affect his status as an employee, because of
such individual's age; or
(3) to reduce the wage rate of any employee in order
to comply with this chapter.

104a

29 U.S.C.A. § 630
§ 630. Definitions
For the purposes of this chapter-(a) The term “person” means one or more individuals,
partnerships, associations, labor organizations,
corporations, business trusts, legal representatives,
or any organized groups of persons.
(b) The term “employer” means a person engaged in
an industry affecting commerce who has twenty or
more employees for each working day in each of
twenty or more calendar weeks in the current or
preceding calendar year: Provided, That prior to
June 30, 1968, employers having fewer than fifty
employees shall not be considered employers. The
term also means (1) any agent of such a person, and
(2) a State or political subdivision of a State and any
agency or instrumentality of a State or a political

105a

subdivision of a State, and any interstate agency, but
such term does not include the United States, or a
corporation wholly owned by the Government of the
United States.
(f) The term “employee” means an individual
employed by any employer except that the term
“employee” shall not include any person elected to
public office in any State or political subdivision of
any State by the qualified voters thereof, or any
person chosen by such officer to be on such officer's
personal staff, or an appointee on the policymaking
level or an immediate adviser with respect to the
(g) The term “commerce” means trade, traffic,
commerce, transportation, transmission, or
communication among the several States; or between
a State and any place outside thereof; or within the
District of Columbia, or a possession of the United

106a

States; or between points in the same State but
through a point outside thereof.
(h) The term “industry affecting commerce” means
any activity, business, or industry in commerce or in
which a labor dispute would hinder or obstruct
commerce or the free flow of commerce and includes
any activity or industry “affecting commerce” within
the meaning of the Labor-Management Reporting
and Disclosure Act of 1959.
(i) The term “State” includes a State of the United
States, the District of Columbia, Puerto Rico, the
Virgin Islands, American Samoa, Guam, Wake
Island, the Canal Zone, and Outer Continental Shelf
lands defined in the Outer Continental Shelf Lands
Act.
(l) The term “compensation, terms, conditions, or
privileges of employment” encompasses all employee

107a

benefits, including such benefits provided pursuant
to a bona fide employee benefit plan.
29 U.S.C.A. § 631
§ 631. Age limits
(a) Individuals at least 40 years of age
The prohibitions in this chapter shall be limited to
individuals who are at least 40 years of age.
(b) Employees or applicants for employment in
Federal Government
In the case of any personnel action affecting
employees or applicants for employment which is
subject to the provisions of section 633a of this title,
the prohibitions established in section 633a of this
title shall be limited to individuals who are at least
40 years of age.
(c) Bona fide executives or high policymakers
(1) Nothing in this chapter shall be construed to

108a

prohibit compulsory retirement of any employee who
has attained 65 years of age and who, for the 2-year
period immediately before retirement, is employed in
a bona fide executive or a high policymaking
position, if such employee is entitled to an immediate
nonforfeitable annual retirement benefit from a
pension, profit-sharing, savings, or deferred
compensation plan, or any combination of such plans,
of the employer of such employee, which equals, in
the aggregate, at least $44,000.
(2) In applying the retirement benefit test of
paragraph (1) of this subsection, if any such
retirement benefit is in a form other than a straight
life annuity (with no ancillary benefits), or if
employees contribute to any such plan or make
rollover contributions, such benefit shall be adjusted
in accordance with regulations prescribed by the

109a

Equal Employment Opportunity Commission, after
consultation with the Secretary of the Treasury, so
that the benefit is the equivalent of a straight life
annuity (with no ancillary benefits) under a plan to
which employees do not contribute and under which
no rollover contributions are made.
42 U.S.C.A. § 12111
§ 12111. Definitions
As used in this subchapter:
(1) Commission
The term “Commission” means the Equal
Employment Opportunity Commission established
by section 2000e-4 of this title.
(2) Covered entity
The term “covered entity” means an employer,
employment agency, labor organization, or joint
labor-management committee.

110a

(3) Direct threat
The term “direct threat” means a significant risk to
the health or safety of others that cannot be
eliminated by reasonable accommodation.
(4) Employee
The term “employee” means an individual employed
by an employer. With respect to employment in a
foreign country, such term includes an individual
who is a citizen of the United States.
(5) Employer
(A) In general
The term “employer” means a person engaged in an
industry affecting commerce who has 15 or more
employees for each working day in each of 20 or more
calendar weeks in the current or preceding calendar
year, and any agent of such person, except that, for
two years following the effective date of this

111a

subchapter, an employer means a person engaged in
an industry affecting commerce who has 25 or more
employees for each working day in each of 20 or more
calendar weeks in the current or preceding year, and
any agent of such person.
(B) Exceptions
The term “employer” does not include-(i) the United States, a corporation wholly owned by
the government of the United States, or an Indian
tribe; or
(ii) a bona fide private membership club (other than
a labor organization) that is exempt from taxation
under section 501(c) of Title 26.
(6) Illegal use of drugs
(A) In general
The term “illegal use of drugs” means the use of
drugs, the possession or distribution of which is

112a

unlawful under the Controlled Substances Act. Such
term does not include the use of a drug taken under
supervision by a licensed health care professional, or
other uses authorized by the Controlled Substances
Act or other provisions of Federal law.
(B) Drugs
The term “drug” means a controlled substance, as
defined in schedules I through V of section 202 of the
Controlled Substances Act.
(7) Person, etc.
The terms “person”, “labor organization”,
“employment agency”, “commerce”, and “industry
affecting commerce”, shall have the same meaning
given such terms in section 2000e of this title.
(8) Qualified individual
The term “qualified individual” means an individual
who, with or without reasonable accommodation, can

113a

perform the essential functions of the employment
position that such individual holds or desires. For
the purposes of this subchapter, consideration shall
be given to the employer's judgment as to what
functions of a job are essential, and if an employer
has prepared a written description before advertising
or interviewing applicants for the job, this
description shall be considered evidence of the
essential functions of the job.
(9) Reasonable accommodation
The term “reasonable accommodation” may include-(A) making existing facilities used by employees
readily accessible to and usable by individuals with
disabilities; and
(B) job restructuring, part-time or modified work
schedules, reassignment to a vacant position,
acquisition or modification of equipment or devices,

114a

appropriate adjustment or modifications of
examinations, training materials or policies, the
provision of qualified readers or interpreters, and
other similar accommodations for individuals with
disabilities.
(10) Undue hardship
(A) In general
The term “undue hardship” means an action
requiring significant difficulty or expense, when
considered in light of the factors set forth in
subparagraph (B).
(B) Factors to be considered
In determining whether an accommodation would
impose an undue hardship on a covered entity,
factors to be considered include-(i) the nature and cost of the accommodation needed
under this chapter;

115a

(ii) the overall financial resources of the facility or
facilities involved in the provision of the reasonable
accommodation; the number of persons employed at
such facility; the effect on expenses and resources, or
the impact otherwise of such accommodation upon
the operation of the facility;
(iii) the overall financial resources of the covered
entity; the overall size of the business of a covered
entity with respect to the number of its employees;
the number, type, and location of its facilities; and
(iv) the type of operation or operations of the covered
entity, including the composition, structure, and
functions of the workforce of such entity; the
geographic separateness, administrative, or fiscal
relationship of the facility or facilities in question to
the covered entity.

116a

